RB: AJ33174

!N THE County COURT OF OMAHA, DOUGLAS COUNTY, NEBRASKA
STATE OF NEBRASKA )

)
COUNTY OF DOUGLAS )

AFFIDAVIT AND APPLICATION FOR
ISSUANCE OF A SEARCH WARRANT
FOR CELLULAR PHONE RECORDS

The complaint and affidavit of Officer Derek MOiS, #1573 on this 11th day of
April, 2018, who, being first duly sworn, upon oath says:

That the officer has probable cause to believe, and does believe that there is
concealed or kept as hereinafter described, the following property, to wit:
A. The following customer or subscriber account information for each account

registered to or associated with 402-739-4520 and 402-850-5695 for the time period
December 1st 2016 • February 14th 2017 in Central Standard Time (CST):
1. Subscriber names, user names, screen names, or other ide.ntitjes;
2. Mailing addresses, residentia.l addresses, business addresses, email addresses,
and other contact information;

3. Local and long distance teiephone connection records, or records of session times
and durations;

4. Length of .service (including start date) and types of services utilized;
S. Teiephone.or instrument number or other subscriber number or identity, including
any temporarily assigned network address; and

6. Means and source of payment for such service (including any credit card or bank
aceount number) and billing records.

B. All records and other information relating to account(s) and time period in Part A,
incjudjtig:
(•

1. Records of user activity for any connections made to or from the account, including
the date, time, length, and method:of connections, data transfer volume, user name,
and source and destination Internet Protocol address(es);
2. All available toll records to include call detail, SMS detail, data sessions, per call

measurement data (PCMD), round trip time (RTT), NELOS, cell site and ce.Il site sector
information and cellular network identifying information (such as the IMSI, MS1SDN,
IMEI, MEID, or ESN);

^4pfxh^<y b.

RB: AJ33174

3. Non-content information associated with the contents of any communication or file

stored by or for the account(s), such as the source and destination email addresses and
IP addresses;

4. Correspondence and notes of records related to the account(s); and
5. Current cellular site list, in electronic format, which includes any and all markets,
switches, and areas the target phone utilized during the time period listed above.
That said property is concealed or kept in, on, or about the following described place or
person, to wit:
Sprint Corporation

Attn: Custodian of Records/Subpoena Compliance
6480 Sprint Parkway
Overland Park, Kansas 66251

That said property is under the control or custody of:
Custodian of Records

That the following are the grounds for issuance of a search warrant for said
property and the reasons for the officers' belief to wit:

On December 23rd 2016 at approximately 1741 hours Omaha Police Officers were
dispatched to 18139 Tammy Trail, Omaha, Douglas County, Nebraska in reference to
the report of a shooting. Upon arrival Officers located a male victim identified as Michael
R. BRINKMAN (W/M DOB: 09/17/1966) with a gunshot wound to the chest. BRINKMAN
was transported to the University of Nebraska Medical Center where he later died as a
result of his injuries.

Officers determined at the time of the shooting event the victim was home with his

girlfriend Kirn MILiUS (W/F DOB: 12/20/1971) and his son Seth BRINKMAN (W/M DO'B:
11/08/2000). MILIUS would state that at approximately 5:30 pm the victim and their son
Seth were getting ready to go out to eat when she answered a knock at the door.

MILiUS would state when she answered the door and would be confronted by two
unidentified masked suspects armed with guns who began demanding money. MILIUS
stated one suspect was a black male about 5'10" to 6'0" in height, heavy set with a
"thick neck" and stubble on his face. MILIUS would state this suspect was
gpproximately 220 to 250 pounds. MILIUS stated the second suspect was a black male

RB: AJ33174

and described him as being taller and lighter than the first suspect. MILIUS described
this suspect as being approximately 6'0" to 6'3" and approximateiy 180 pounds.

Seth BRINKMAN would state at approximately 5:30 pm he was taking a shower
preparing to go out to dinner with his parent when he heard his mother screaming. Seth
would state he would come to see two intruders armed with handguns. Seth would
describe one suspect as being a black mate approximately 6'0" to 6'1" in height and
being heavy set with a big gut and wearing a mask. Seth would describe the second
suspect as being approximately 6'1" to 6'2" and having a thinner build than the first
suspect.

During the subsequent scene investigation Investigators would locate items determined
to have been dropped by one of the suspects during the physical altercation with the
victim. Investigators and Forensic Investigations personnel would locate remnants of
fast food and packaging items, including a partially eaten piece of bread. Forensic
Technicians would collect a swab for possible DNA from the bread under EV#20.

During a canvass of the neighborhood Officers located exterior cameras on 18230

Tammy Trail. Investigators were able to determine those cameras did cover the victim's
residence. Crime lab personnel were ab!e to recover footage from that system which
upon review did capture what appeared to be a newer model white SUV traveling
eastbound on Tammy Trail and pull into 18139 Tammy Trail parking facing westbound at
5:33 pm at the victim's residence( just prior to the shooting event). Video then captures
the same vehicle leaving at approximately 5:41 pm.

Video also shows what appears to be the same vehicle slowed in front of the victims
residence at 4:55 pm continues eastbound into the circle, turn around and drive back by
18139 Tammy Trai! at 4:56 pm.

Investigators believe the vehicle in the video is a white 2015-2016 Dodge Durango SUV.
Investigators believed from prior experience that it was possible suspects could have
used a rented vehicle while committing this crime.

On December 27th 2016 EV#20, the possible DNA swab collected from the partially
eaten bread, was submitted to UNMC Human DNA Laboratory for testing.

On December 28th 2016 Officer CAHILL served a subpoena to Budget Car rental

requesting information related to any leased 2016 Dodge Durango SUV in the Omaha
area during the time frame of December 23rd 2016. Budget Car rental would return
information that included a rental agreement to a Carnell WATT (B/F DOB: 03/17/1979)
of a 2016 Dodge Durango SUV bearing Texas plates GSB-1580 from the dates of

RB: AJ33174

December 13th 2016 to December 27th 2016 (Rental Agreement : AVIS RA

608359032). Affiant Officer observed within the provided rental agreement that WATT
provided a contact number of 402-739-4520. Affiant Officer learned this number is
currently assigned to Sprint Corporation.

On January 14th 2017 Officer CAHILL would conduct an interview with WATT. WATT
would acknowledge renting the aforementioned 2016 Dodge Durango SUV from
Avis/Budget on December 13th 2016. WATT would also state that during the course of
her having that vehicle she loaned the vehicle out on multiple occasions to family and
friends. WATT would state one of those people was an acquaintance by the name of
"Lee JENNINGS".

On January 23rd 2017 Investigators were notified of a mainly single source male DNA
profile was located from testing of EV#20.

On January 27th 2017 the UNMC Human DNA Laboratory submitted their findings to
the Nebraska State Patrol for CODIS entry and search.
On February 13, 2017 investigators were notified of a possible CODIS identification to
the submitted sample was that belonging to LeAndre R. JENNINGS III (B/M DOB:
09/30/1987).

On February 13, 2017 subsequent research utilizing the NCJIS database, Affiant
Officer observed that JENN1NGS has a physical of 6' and being approximately 300
pounds. Affiant Officer also observed that JENNSNGS was currently on US Probation

beginning 04/10/2015. Affiant Officer observed JENNINGS was currently assigned to
the Omaha US Probation Office under Officer Mike SLIVA. Affiant Officer spoke to
Officer SL1VA and he would provide a current cell phone number for JENNINGS of
402-850-5695. Affiant Officer learned this number is also currently assigned to Sprint
Corporation.

Affiant Officer believes data held by Sprint Corporation will aid in determining the
possible relationship between the aforementioned individuals and provide details on the
events which lead to the death of Michael R. BRINKMAN.

Affiant Officer is requesting that this Court issue a search warrant for the

information provided in Part A and Part B which is stored with Sprint Corporation, as
Affiant Officer believes that data from the aforementioned cellular phone number will
assist in the investigation.

RB: AJ33174

WHEREFORE, the officers pray that a Search Warrant may be issued according to law.

c^^
Om

-73:
Police Officer

SUBSCRIBED AND SWORN to me this 11th day of April, 2018.

Judge of the County Court

ilgVJII^I
sn^-llL.

RB: AJ33174

IN THE County COURT OF OMAE4A, DOUGLAS COUNTY, NEBRASKA
STATE OF NEBRASKA)

)

SEARCH WARRANT FOR
CELLULAR PHONE RECORDS

COUNTY OF DOUGLAS)
TO: OMAHA,, NEBRASKA POLICE OFFICER Derek M01S.
This matter came on for hearing on the 11th day of April, 2018, upon the sworn
application and affidavit for .issuance of a 'search warrant of Officer Derek MOIS, #1573
and the Court, being fully advised in the premises finds as follows:
That the Court has jurisdiction of this matter pursuant to the Sections 29-812,
Nebraska Revised Statutes, 19.43, as amended.

That abased upon the sworn affidavit and application of issuance of a search warrant of
Derek MOIS dated the 11th day of April, 2018, that there is probable cause to believe
that located at Sprint Corporation ,AND/ORthe authorized or designated agent for the
custodian of records of the electronic Gommunications service provider, the following
described records and other information for 402-739-4520 and 402-850-5695, to-wit;

A. The foilowi.ng customer or subscriber account information for each account
registered to or associated with 402-739-4520 and 402-850-5695 for the time period
December 1st 2016 to February 14th 2017 in Central Standard Time (CST):
1. Subscriber names, user names, screen names, or other identities;
2. Mailing.addresses, residential addresses, business addresses,: email addresses,
and other GO ntact information].

3. Local and long distance telephone connection records, or records of session times
and durations;

4. Length of service (including start date) and types of services utilized;
5. Telephone or instrument number or other subscriber number or identity, including
any temporarily assigned network address; and

6. Means and source of payment for such service (including any credit card or bank
account number) and billing records.

RB: AJ33174

B. All records and other information relating to account(s) and time period in Part A,
including:

1. Records of user activity for any connections made to or from the account, including
the date, time, length, and method of connections, data transfer volume, user name,
and source and destination internet Protocol address(es);

2. Al! available toll records to indude call detail, SMS detail, data sessions, per call
measurement data (PCMD), round trip time (RTT), NELOS, cell site and cell site sector
information and cellular network identifying information (such as the IMS!, MS1SDN,
!ME!,MESD,orESN);

3. Non-content information associated with the contents of any communication or file

stored by or for the account(s), such as the source and destination email addresses and
!P addresses;

4. Correspondence and notes of records related to the account(s).
5. Current cellular site list, in electronic format, which includes any and all markets,
switches, and areas the target phone utilized during the time period listed above.

AND, if found, to seize and deal with the same as provided by law, and to make return
of this warrant to me within ten days after receiving the requested information set forth
in Part A and Part B.

YOU ARE, THEREFORE, ORDERED, pursuant to Nebraska Revised Statue 29-813
that Sprint Corporation will, within fourteen f14) days of the date of this Order, turn
over to the Omaha, Nebraska Police Department the records and other information as
set forth in Part A and Part B.

IT 6S FURTHER ORDERED, that any other person, device, computer, and/or number
that is in communication with the target device shall be considered part of the criminal
investigation and shall require the disclosure of the data in Part A and Part B from any
provider of electronic communications services as defined by Nebraska Revised Statute
86-277. This shall also include the target device roaming or utilizing any electronic
communications service provider's network and/or antennas, regardless of carrier or
provider.

IT BS FURTHER ORDERED that Sprint Corporation or any other person/company, shall
not disclose the existence of this search warrant, or the existence of the investigation, to
the listed subscriber or to any other person, unless and until authorized to do so by the
Court.

RB: AJ33174
IT IS FURTHER
the daytime hours.

, that execution of the Search Warrant be forthwith during

6T 6S FURTHER ORDERED, that Omaha, Nebraska Police Officer Derek MOIS ,

make return of this Search Warrant to me within ten days after receiving the requested
information from the electronic communications service provider.
Given under my hand this 11th day of April, 2018.

Judge of the Douglas County Court

